CERTIFICATE OF SERVICE
No. TBD
Paul Maravelias
Petitioner(s)
v.
David DePamphilis
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Paul
Maravelias Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Simon R. Brown
Preti, Flaherty, Beliveau, Pachios LLP
P.O. Box 1318
Concord, NH 03302-1318
(603)410-1500
sbrown@preti.com
Counselfor David DePamphilis

—

Lucas'DeDeus

June 27, 2019
SCP Tracking: Maravelias-34 Mockingbird Hill Road-Cover White

